Audit Report 98-06
DEPARTMENT OF JUSTICE SEIZURE AND DISPOSAL
EFFORTS
FOR THE BICYCLE CLUB CASINO
Audit Report 98-06, (2/98)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
1. PRESEIZURE PLANNING WAS NOT ADEQUATE
Recommendation and Status
2. DISPOSAL PROCESS WAS INADEQUATE
Recommendations and Status
3. THE DEPARTMENT USED COURT-APPOINTED TRUSTEES TO MANAGE AND
DISPOSE OF THE BICYCLE CLUB
Recommendations and Status
4. USMS MANAGEMENT CONTROLS NEED STRENGTHENING
5. OVERALL CONCLUSION AND LESSONS LEARNED
APPENDIX I - The Department of Justice Asset Forfeiture Program
APPENDIX II - Audit Objectives, Scope, and
Methodology
APPENDIX III - USMS Annual Receipts and Expenses
Related to the Bicycle Club Asset
APPENDIX IV - Government Revenue and Replacement
Successor Trustee Compensation and Expenses May 1996 to July 1997
APPENDIX V - Prior Reviews of the Asset Forfeiture
Program
APPENDIX VI - Statement on Compliance with Laws and
Regulations
APPENDIX VII - Criminal Division Comments - Not available at this time.
APPENDIX VIII- OIG Analysis and Rebuttal of
Criminal Division Comments
EXECUTIVE SUMMARY
Depriving criminals of profit is a major goal of the Department's asset forfeiture
program.1 In 1990, as a result of a money laundering investigation
in Florida,2 the Department of Justice (Department) seized the
Bicycle Club (Club), a card casino in Bell Gardens, California. Seven years later the
Department still holds the asset. Throughout this period, allegations of mismanagement and
criminal activity at the Club have been a source of controversy for the Department. As of
December 1997, an agreement to dispose of the government's interest is pending.
In brief, our audit determined that the seizure of the Bicycle Club effectively
deprived criminals of substantial profits. As of December 1997, the Department has
received over $30 million through its ownership of the Club. These funds have been used to
fight crime instead of to fund an ongoing criminal enterprise.
Under the best of circumstances, the Bicycle Club would be a difficult asset to manage
and sell because it is an operating business with a complex partnership structure in a
highly competitive, specialized industry. In our judgment, however, the Department's
actions further complicated seizure and disposal efforts.
The Department's preseizure planning efforts were virtually nonexistent. The United
States Attorney's Office (USAO) for the Southern District of Florida did not adequately
consider the potential management and disposal difficulties related to the Bicycle Club.
In addition, the USAO did not coordinate its efforts with the United States Marshals
Service (USMS), the Department's custodian of seized property, in the decision to seize
the entire operating asset. We believe the lack of preseizure planning to be the root
cause of virtually all other findings contained in our report. In the future, the costs
and benefits of seizing complex, controversial assets like the Club should be weighed
against other alternatives before any seizure occurs. Such assets should not be seized
until: (1) the risks of seizing and holding the asset are fully evaluated; and (2) all
components with responsibilities in the seizure and disposal efforts are adequately
consulted.
The Department's process for disposing of the asset has been inadequate. At various
times, Department components have disagreed over when to sell the Club, whom to sell it
to, and how to accomplish a sale. Litigation has also complicated disposal efforts. In our
judgment, the Department should have moved more decisively to sell its interest in the
asset. This was particularly true in 1993, after the general partnership interest was
forfeited to the government. Unfortunately, holding assets for long periods of time --
especially complicated ongoing businesses like the Club --presents risks. The pending
agreement (now almost two years old) to dispose of the government's interest, indicates
that the value of the government's interest appears to have decreased significantly since
1993.3 In the future, the Department should sell assets like the
Club as promptly as possible in order to avoid the risks inherent in holding them for long
periods of time.
Although the asset forfeiture statutes vest the Attorney General with the responsibility
to dispose of forfeited assets, the Department continued to request court-appointed
trustees to manage and dispose of the Bicycle Club. Since 1990, there have been three
court-appointed trustees charged with oversight of the casino. We identified several
control weaknesses with the court-appointed trustees including vague duties and
responsibilities, at least the appearance of conflicting duties, and generous compensation
arrangements. Over the seven-year period, court-appointed trustee duties have varied
widely and their compensation has grown exponentially. Compensation has ranged from about
$2,000 per month for the first trustee, to an average of about $21,000 per month for the
second trustee, to an uncapped flat rate of $350 per hour for the current trustee that has
averaged $60,000 per month, excluding expenses. We are concerned about the compensation
arrangement for the current trustee and the maximum amount he can charge the Department.
In our judgment, the trustee's compensation arrangement creates at least the appearance of
a conflict because it could provide a disincentive for the trustee to sell the
government's interest in the casino.4
Departmental officials agreed with our recommendations but not all of our findings.
They also had explanations for why certain actions were either taken or not taken. We have
included their views within the report's findings. In addition, Criminal Division
officials wanted their written comments included in the report and they appear in Appendix
VII.
Our audit objectives, scope, and methodology are in Appendix II. A chronology of
significant events is set forth in the Introduction. The details of our work are contained
in the Findings and Recommendations section of the report.
INTRODUCTION
The Office of the Deputy Attorney General (DAG) requested that we review the
Department's seizure, management, and disposal attempts relative to the Bicycle Club, an
operating card casino in Bell Gardens, California. The Club is a joint venture consisting
of the LCP Limited Partnership (65 percent ownership) and the PPA Limited Partnership (35
percent ownership). The Department has had a complex and troublesome relationship with the
Bicycle Club that began seven years ago when the Club was seized in connection with a
money laundering investigation. Our audit analyzed the Department's handling of the
Bicycle Club over the past seven years and assessed the lessons to be learned for the
handling of similar assets in the future.
The history of the Department's management of the Bicycle Club is marked by numerous
legal entanglements, complex ownership arrangements, unsuccessful attempts to liquidate,
and generous compensation rates for the interim management of the Club. To give the reader
a better understanding, we have provided the following chronology of significant actions
and events relative to the Bicycle Club seizure. Our findings and recommendations for
corrective action follow the chronology.
· June 1986 -- Internal Directive Issued
The Department of Justice issues an internal directive to all United States Attorneys
entitled: "Anticipating and Avoiding Problems Relating to the Management and
Disposition of Seized and Forfeited Assets." The directive requires coordination
between the USAOs and the USMS prior to seizure of an asset. It also warns about potential
long-term problems that may arise when complex assets such as businesses are seized.
· November 1987 -- Indictment of Certain Individuals Linked to the Bicycle
Club
An indictment is returned in Miami, Florida, following a money laundering investigation
conducted by the USAO for the Southern District of Florida. The indictment names
individuals with links to the Bicycle Club casino.
· March 1990 -- Bicycle Club Affiliates Convicted
Individuals with links to the Bicycle Club are convicted for laundering drug smuggling
profits. All convictions are related to the LCP Partnership.
· April 1990 -- Department of Justice Seizes Bicycle Club
The Department seizes the entire Bicycle Club, including the LCP and PPA Partnerships.
The court directs the manager of the Bicycle Club to continue managing the daily
operations of the Club and appoints a trustee, the City of Bell Garden's Finance Director,
to protect the interests of the potential claimants (e.g. the innocent partners). The
trustee's duties are minimal and compensation is approximately $2,000 per month.
· May 1990 -- PPA Partnership Returned
The Department returns the PPA Partnership's original 35 percent ownership, leaving the
Department with 65 percent ownership of the Club's assets pending the outcome of further
legal action with LCP partners.5
· August 1991 -- Settlement Confirmed; Attempts to Sell Club Unsuccessful
The United States District Court, Southern District of Florida, confirms a settlement
agreement, which along with its earlier court decision, returns 35 percent of the Club to
certain LCP partners. This leaves the Department with 30 percent ownership of the Club's
assets, including 6 percent subsequently appealed by one of the partners.
In the summer and fall of 1991, representatives of the Department and the USMS explore
the possibility of selling the government's interest to the other partners. Subsequent
offers from various partners to buy the government's interest in the Bicycle Club are made
in June 1992, December 1992, June 1993, March 1995, November 1995 and January 1996.
According to Department records, the partners did not tender viable offers, or provide
evidence of sufficient financing.
· April 1992 -- Bankers Tell DOJ: Non-Controlling Interest Decreases Ownership
Value
Two years after the seizure of the Club, representatives from the Criminal Division's
Asset Forfeiture Office (AFO), the Antitrust Division, and the USMS contact investment
bankers to explore the possibility of selling the government's interest. According to the
Asset Forfeiture Office, the bankers advise that because the government does not have
management control, it will be difficult to sell the government's interest, and the value
of its interest is substantially reduced from what it would be if it had such control.
· June 1992 -- Management Weaknesses at Club; Trustee Replacement Decided
A consultant, Kenneth Leventhal & Co., completes a USMS-requested review of the
Bicycle Club. The review finds that the Club's financial controls and procedures are
inadequate to ensure that improprieties do not occur. Based on the report and a potential
conflict of interest issue resulting from the trustee's employment with the City of Bell
Gardens, which benefits directly and substantially in taxes from the Club revenues, the
Department decides to replace the interim trustee.
· June - October 1992 -- Court-Appointed Trustee Arrangement Continues
The involved Department components debate how to replace the trustee. Two major issues
surface: (1) whether the replacement should be a contractor working under the control of
the USMS or another court-appointed trustee; and (2) whether there should be more than one
trustee. The Department decides to continue using a single court-appointed trustee and
selects the individual in October 1992. The USMS is assigned the task of drafting the
court order.
· March 1993 -- Trustee's Pay Grows; IG Criticizes USMS Asset Management
After several months' delay within the Department, the court order appointing the
successor trustee is submitted to the court and approved in March 1993. The trustee's
duties increase over time. His compensation is $116,610 in 1993, $254,950 in 1994, and
$322,500 in 1995.
The Office of the Inspector General issues an audit report entitled: Contract
Services for the Management of Seized Assets. The audit discloses that the USMS is not
adequately monitoring contractor performance and that assets under USMS management are
deteriorating in value.
· August 1993 -- Civil Forfeiture Brings Department Ownership to 36%
A related civil forfeiture in the Central District of California results in an
additional 6 percent government interest in the Bicycle Club. This gives the Department 36
percent ownership of the Club's assets, including 6 percent still under appeal.
· November 1993 -- Government Confirmed as General Partner
The court rules that, based on the August 1993 civil forfeiture, the government is the
general partner of LCP and the administrative officer of the Bicycle Club joint venture.
As the general partner, the government now has exclusive control over the business of the
partnership and fiduciary responsibilities to the other partners. The court also rules
that the trustee is to assume, on behalf of the government, the LCP general partner
position and authorizes the trustee to sell all of the government's interest. The USMS
Office of General Counsel opposes the appointment because it believes a conflict of
interest exists between the duties of a general partner, and the trustee's fiduciary duty
to protect the interests of the government.
· March 1994 -- Asian Games Manager Arrested; IG Criticizes USMS
The Bicycle Club's Asian games manager is arrested at the Club and later convicted of
loan sharking and extortion.
The Office of the Inspector General issues an audit report entitled: United States
Marshals Service Maintenance and Disposal of Seized Assets. The audit discloses that
material weaknesses continue to exist in the maintenance and disposal of seized and
forfeited assets, including the USMS' practice of holding assets for long periods of time
after forfeiture.
· May 1994 -- Decision Is Made to Remove Club's General Manager
The Department and other LCP partners agree that the Club's general manager should be
removed due to allegations of criminal activity, mismanagement, and failure to implement
the trustee's recommended internal control improvements.
· July 1994 -- Bids for Club Solicited
The trustee solicits bids for the purchase of the government's interest in the Club.
Nine bids are received and reviewed.
· August 1994 -- Attempt to Sell Club Fails; General Manager Resigns
The USMS awards the winning bid for the purchase of the Club. Because the Club's
revenues are declining, the bidders request more time to obtain financing, which leads to
delays in finalizing the sale. Eight months later, the offer is withdrawn due to a lack of
financing.
The general manager resigns and the trustee is appointed by court order as the Club's
interim general manager. This appointment further increases the trustee's power and
authority. He now functions as the Club's general manager, sales broker for the
government's portion of the Club, general partner, and joint venture administrative
officer.
· July 1995 -- Consultant Reviews Bicycle Club Operations
At the request of the City of Bell Gardens, a consultant, John Van de Kamp, a former
California State Attorney General, reviews the Club's operations. The consultant makes
recommendations for improvements in the following areas: marketing, internal controls,
surveillance, security, and personnel. The consultant observes that: (1) when the trustee
became the temporary general manager the relationship between the Club and law enforcement
agencies began to improve, and (2) the trustee and his replacement general manager have
undertaken initiatives to enhance the image of the Club in order to remain competitive.
· November 1995 -- Offer To Buy Club Received
The USMS interviews three investment banking firms with the hope of finding an
acceptable approach to the sale of the Club. Shortly after interviewing the investment
banking firms, the USMS, the LCP, and the PPA partners receive an unsolicited offer to buy
the Bicycle Club. The range of the offer for the government's 30 percent controlling
interest (excluding 6 percent on appeal) is between $19 million and $25 million.
· January 1996 -- More Reviews of Bicycle Club-Related Activities
At the request of the USMS, the consulting firm of Don Kelly and Company evaluates the
operations of the Bicycle Club and the business performance of the trustee. The firm
concludes that declining Club revenues are due to increased competition and that the
trustee is doing a good job of managing Club personnel.
At the request of the USMS, Price Waterhouse reviews the trustee's billings to the
USMS. Total billings during the review period were $1.6 million. Price Waterhouse tests
billings for about half of this amount and notes only minor errors or unsupported
billings. However, Price Waterhouse also reports that in some instances it is unable to
determine if expenses were reasonably consistent with the duties assigned based on the
court order.
The USMS performs an internal review of its oversight of the Bicycle Club and notes
numerous instances of poor internal controls and lack of specific guidelines for
monitoring and directing trustee activities.
The court decides that the 6 percent ownership under appeal is not subject to
forfeiture. This decision leaves the Department with 30 percent ownership of the Club's
assets. In March 1996, the government files a petition for rehearing on the 6 percent
ownership interest.
· February 1996 -- Review Finds that Trustee Lacks Specific Guidelines
At the request of the USMS, another consultant, Legalgard, evaluates billings by the
trustee's legal counsel and finds that the USMS had not developed specific guidelines for
the trustee to follow in defining allowable expenses. Legalgard therefore concludes that
it cannot make determinations regarding the reasonableness and proper categorization of
the billings.
· March 1996 -- Senate Hearing Held; CBS' 60 Minutes Covers Bicycle Club; Deputy
Attorney General's Office Assigned Oversight
The Senate Permanent Subcommittee on Investigations, Committee on Governmental Affairs
convenes a public hearing on the USMS' management of the Bicycle Club. Several witnesses,
including some current and former employees of the Club, detail persistent management
problems and allegations of criminal activity at the Club, including skimming of profits,
drug dealing, extortion, loan sharking and money laundering. The Director of the USMS is
criticized for ignoring criminal activity at the Club and for not selling the government's
interest in the asset.
Department representatives contest statements made at the hearings and also state that
many referrals to state, local, and federal law enforcement agencies have been made
regarding alleged criminal activities at the Club. According to Department officials, the
USAO for the Central District of California organized a task force to review every
criminal allegation. The task force was comprised of Federal, state, and local law
enforcement officials, who determined that none of the allegations were prosecutable.
CBS' 60 Minutes airs a highly critical account of the Department's involvement with the
Bicycle Club, including videotape of alleged drug trafficking and money laundering at the
Club. The report suggests that the Department is condoning ongoing criminal activity at
the Club because, having earned over $30 million6 for the
Department, it amounts to a "cash cow." The broadcast also criticizes the
qualifications of the second court-appointed trustee, his management of the Club, and his
recent annual compensation of over $300,000. The USMS and the Criminal Division's AFO
prepare a rebuttal to statements made during the broadcast but the Department decides not
to circulate it.
In response to the Senate Hearing and the 60 Minutes story, a senior official in the
Deputy Attorney General's Office is assigned the responsibility for disposal of the asset.
· April 1996 -- Club Managers Denied Gaming Licenses; Trustee Resigns
The State of California Attorney General's Office denies the license applications of
three senior managers involved in the operations of the Bicycle Club. The state also
serves the trustee with notice of its intention to withdraw his gaming license. The
general manager, the Asian games manager, and another employee are barred from entering
the Club. About the same time, the USMS, in consultation with the Deputy Attorney
General's Office, accepts the resignation of the trustee, effective upon selection of a
replacement.
Club managers obtain counsel and within weeks secure restraining orders against
proceedings to revoke the licenses of the Club executives prior to court hearings. Later,
in 1997, an administrative law judge in California rejects the California Attorney
General's claims. The California Attorney General has the option to pursue the matter
further. Also in 1997, the notice of intention to withdraw the former trustee's gaming
license is settled. The settlement provides no payment for allegations against the former
trustee and contains no findings of wrongdoing.
· June 1996 -- Trustee Replacement Approved With No Limit on Earnings
The court approves the Department's selection of the replacement trustee effective May
1996. The trustee's compensation is set in the court order at $350 per hour with no cap on
annual earnings. Earnings from May 1996 through July 1997 are $894,235.
· July 1996 -- Department Has an Agreement to Dispose of Club
The Department advises the court that it has a signed agreement to dispose of the
government's interest in the Club. The agreement is the culmination of the November 1995
offer.
· August 1996 -- Partnership Approves Disposal Agreement
In a partnership vote, 89 percent of the Government's partners (all except one) accept
the disposal agreement and it is submitted to the court.
· December 1996 -- Registration Application Rejected
The Gaming Registration Office of the California Department of Justice rejects the
registration application of the offering party to operate the gaming tables. This is
because the offeror is a publicly traded corporation and it holds out-of-state gambling
interests.
The court holds a hearing on the agreement to dispose of the government's interest.
· February 1997 -- Disposal Agreement Progresses
The trustee, his advisors, the California Attorney General, and the offeror discuss the
best manner to resolve the registration issue and submit the proposed agreement to the
Office of Gaming Registration of the California Department of Justice.
· March 1997 -- Court Approves Disposal Agreement
The court approves the sale agreement, which includes leasing as a means of disposing
of the Government's interest in the Bicycle Club. Lease negotiations with potential gaming
operators commence. The California Deputy Attorney General states the Office of Gaming
Registration will have no objection to the disposal agreement provided that it contains an
arms length lease agreement.
· April 1997 -- $3 Million Deposit for Disposal Agreement
The offeror pays $3 million to extend the disposal agreement closing date until October
14, 1997.
· July 1997 -- Disposal Agreement Process Continues
Negotiation for a lease of the gaming operations of the Bicycle Club is completed.
· September 1997 -- Registration Application Submitted
The Government signs an agreement allowing a third entity to operate the gaming tables
as part of the disposal agreement. The lessee submits gaming registration application to
the California Gaming Registration Office. California authorities indicate the review of
the lease and application will require at least 90 days.
· October 1997 -- Agreement Still Pending
At the conclusion of our audit, the process for completing all elements to close the
disposal agreement were continuing.
1 The Department of Justice Asset Forfeiture Program is described
in greater detail in Appendix I.
2 The forfeiture for this asset was pursuant to 18 U.S.C. Section
1963(a)(3) as a result of convictions for violation of the Racketeer Influenced and
Corrupt Organizations Act (RICO).
3 This analysis is based upon fair market value as determined
by a USMS contractor in 1993. Since a sale did not occur at that time, we cannot say with
certainty that the Government could have sold its interest in the Club for the
contractor's estimated fair market value. In our judgment, however, the estimate is the
best available data to identify the value of the government's interest at the time.
4 Our audit did not include an assessment of the diligence of
the current trustee's disposal efforts. However, no instances of conflict of interest for
this trustee were brought to our attention during the audit.
5 Documentation reviewed during the audit expressed government
ownership percentages in terms of either the club or the LCP Partnership. For simplicity
and consistency, the ownership percentages we refer to in the report are for the overall
Bicycle Club and have been rounded.
6 The Department's annual receipts and expenses for the
Bicycle Club are contained in Appendix III.
#####